                              CLOSEOUT ofM99110054
We received a document in connection with another case,' which was subsequently
closed, that contained allegations of 1) plagiarism in a proposal to NSF and 2) failure to
properly attribute the work of others against the subjectP2therefore we opened this case
on November 19, 1999.

We contacted the complainant3 who stated that the plagiarized material referred to in the
first allegation was removed from the proposal by a party other than the subject before the
proposal was submitted. She failed to provide information to substantiate the second
allegation.

We c~ncludedthat since the subject's proposal did not contain plagiarized material, there
was no substance to the first allegation. We also concluded that it will not be possible to
determine whether the subject failed to properly attribute the work of others without
obtaining further information from the complainant. Therefore, this inquiry is closed.

Cc: Integrity, IG




                                             Footnotes redacted




                                       Page 1 of 1
